No.
IN THE SUPREME COURT OF THE UNITED STATES
FEDERAL ELECTION COMMISSION, APPELLANT
v.
TED CRUZ FOR SENATE AND
SENATOR RAFAEL EDWARD “TED” CRUZ

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the JURISDICTIONAL STATEMENT, via e-mail and first-class mail, postage prepaid, this
2ND day of July, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6668
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on _July 2, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 2, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to mailing
your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is acceptable to
you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist, Office of the
Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218.

FEDERAL ELECTION COMMISSION
TED CRUZ FOR SENATE AND
SENATOR RAFAEL EDWARD “TED” CRUZ
Charles Justin Cooper
Cooper & Kirk PLLC
1523 New Hampshire Avenue, N.W.
Washington, DC 20036
(202) 220-9600
ccooper@cooperkirk.com
Chris Gober
The Gober Group PLLC
PO Box 341016
Austin, TX 78734
(512) 354-1787
cg@gobergroup.com

